 U.S. Department of Agriculture
  Office of Inspector General
  Financial and IT Operations
          Audit Report



Review of FSIS Inspector Staffing Shortages
     and Anti-Deficiency Act Violations




                    Report No.
                    24601-1-FM
                    APRIL 2001
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:         April 4, 2001

ATTN OF:      24601-1-FM

TO:           Thomas Billy
              Administrator
              Food Safety and Inspection Service


This report presents the results of the subject review. Your March 29, 2001, response

to the draft report is included as exhibit A with excerpts and the Office of Inspector

General’s position incorporated into the relevant sections of the report.



We have accepted your management decision for all recommendations contained in

the report.



Please   follow   your   internal     agency’s     procedures     in   forwarding   final   action

correspondence to the Departments’ Office of the Chief Financial Officer.

  /s/

ROGER C. VIADERO
Inspector General
                                    EXECUTIVE SUMMARY
                    REVIEW OF FSIS INSPECTOR STAFFING SHORTAGES
                         AND ANTI-DEFICIENCY ACT VIOLATIONS

                                      AUDIT REPORT NO. 24601-1-FM


                                         Congress,     in    the    Agriculture,  Rural
          RESULTS IN BRIEF               Development, Food and Drug Administration,
                                         and related agencies Appropriation Bill, 2001,
                                         directed the Office of Inspector General (OIG)
              to undertake a review of the adequacy of the Food Safety and Inspection
              Service (FSIS) financial and project management. Specifically, we were
              directed to “ascertain what deficiencies resulted in recent inspector
              shortages and why Anti-Deficiency Act violations occurred over the last
              two years.”

                   We found that inspector shortages occur because FSIS does not have a
                   method of estimating staffing needs based upon all meaningful criteria,
                   including projections of changes in attrition and industry production levels.
                   In the absence of a supportable prescribed staffing level, we were unable
                   to ascertain what the actual shortfalls were.

                   The Anti-Deficiency Act violations occurred because of the accounting
                                                                                     1
                   system and control deficiencies in the prior accounting system used by
                   FSIS. The agency also cited the absence of compensating controls at its
                   operating levels to preclude or detect, in a timely manner, these violations.

                   The FSIS described to us several positive steps they have instituted to
                   better manage inspector resources and improve funds control. FSIS has
                   broadened its recruitment efforts and implemented new resource
                   management tools to plan and manage inspector staffing. FSIS also
                   made changes in its fiscal operations and controls intended to improve its
                   ability to track and monitor funds, and retained an outside consultant to
                   independently assess FSIS’ financial management and make
                   recommendations for improvements.

1
  The Centralized Accounting System (CAS). Since 1991, our audit reports on the USDA financial statements and our internal
control reviews of OCFO/NFC have detailed material internal control weaknesses in CAS that resulted in unreliable information.
For example, we reported that CAS does not conform to the U.S. Government Standard General Ledger (SGL); general ledger
accounts were not always appropriately crosswalked to the financial statements as required by SGL, and the audit trail from the
general ledger to supporting documentation, in some cases, was nonexistent. Also material weaknesses continue to exist in the
area of accounting adjustments and reconciliations within the CAS.




USDA OIG-A/24601-1-FM                                                                                                Page i
                   We found that, while FSIS has taken several actions to alleviate potential
                   staffing shortages, FSIS’ resource management methods need further
                   strengthening to better estimate staffing needs and to ensure that
                   inspectors are deployed to areas where they are in the greatest need.
                   FSIS’ budgeting and resource allocation methods are not currently
                   designed to identify and request budget authority to “fully” staff inspector
                   positions at plants. Currently, budget requests and staffing allocations are
                   based on two key variables: prior use of staff years and attrition. Thus,
                   although some demand data is considered, production increases may not
                   be adequately addressed. In addition, attrition estimates at both the
                   national and district levels are based on the prior year, rather than
                   prospectively using available data on retirement eligibility and
                   resignations. Thus, FSIS could also improve its attrition estimates by
                   using actual information on the age and service time of recent retirees and
                   current inspectors.

                   We also found that while FSIS has taken actions to improve funds control,
                   and progress had been made, new financial management problems have
                   arisen associated with the agency’s conversion to a new accounting
                   system. These issues entail, as of September 30, 2000, the following: per
                   agency officials, over $3 million in indirect costs, like overhead, were
                   incorrectly distributed across all accounts in the Foundation Financial
                   Information System (FFIS), which resulted in misstated obligations for
                   FSIS’ reimbursable activities; $37 million in differences (receipts and
                                                                 2
                   disbursements) between FSIS and Treasury ; and over $430 million of
                   transactions executed in prior years for which supporting documentation
                   had not been located.

                                           With regard to managing inspector staffing,
    KEY RECOMMENDATIONS                    we recommended that FSIS develop
                                           procedures to estimate staffing needs
                                           nationally, under current inspection practices,
           based upon forecasted industry production levels, and age, service and
           retirement eligibility data, in order to seek sufficient funds in budget
           requests to fulfill all inspector staffing needs

                   In regard to funds control, we recommended that FSIS (1) correct the
                   problems, in consultation with the Office of the Chief Financial Officer
                   (OCFO), that have impacted the proper allocation of costs and impeded
                   timely reporting to oversight officials, (2) develop and implement a
                   process to timely reconcile FSIS’ Fund Balance with Treasury with the
                   records maintained by Treasury, and (3) establish a team to immediately

2
 FSIS records its budget spending authority in asset accounts called Fund Balance with Treasury, and increases or decreases this
account as it collects or disburses funds.

USDA OIG-A/24601-1-FM                                                                                                Page ii
          research the unsupported amounts converted to FFIS from the
          Centralized Accounting System (CAS), and make the necessary
          adjustments to correct the records.


                                   In its March 29, 2001 response, the Food
    AGENCY RESPONSE                Safety and Inspection Service concurred with
                                   all of the report’s recommendations and
                                   provided    an      acceptable   time-phased
        corrective action plan. The agency agreed to: develop and implement
        refined procedures to better estimate staffing needs and incorporate the
        results in its budget requests; and, working in tandem with the
        Department’s Office of Chief Financial Officer, resolve the problems
        associated with the implementation of the Department’s new accounting
        system.



                                    We determined the agency’s response was
        OIG POSITION                adequate to achieve management decision on
                                    all of the recommendations.




USDA OIG-A/24601-1-FM                                                    Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY................................................................................................ i
   RESULTS IN BRIEF................................................................................................... i
   KEY RECOMMENDATIONS ..................................................................................... ii
   AGENCY RESPONSE.............................................................................................. iii
   OIG POSITION ......................................................................................................... iii
TABLE OF CONTENTS ............................................................................................... iv
INTRODUCTION ........................................................................................................... 1
   BACKGROUND......................................................................................................... 1
   OBJECTIVES ............................................................................................................ 3
   SCOPE ...................................................................................................................... 4
   METHODOLOGY ...................................................................................................... 4
FINDINGS AND RECOMMENDATIONS....................................................................... 6
   CHAPTER 1............................................................................................................... 6
   FSIS’ INSPECTION PROGRAM FORECASTING AND RESOURCE ALLOCATION
   METHODS NEED IMPROVEMENTS ........................................................................ 6
   RECOMMENDATION NO. 1...................................................................................... 9
   CHAPTER 2............................................................................................................. 11
   ACTIONS TAKEN HAVE IMPROVED FUNDS CONTROL; ADDITIONAL ACTIONS
   WOULD PROVIDE FURTHER STRENGTHENING ................................................ 11
   FINDING NO. 2........................................................................................................ 11
   RECOMMENDATION NO. 2.................................................................................... 16
   RECOMMENDATION NO. 3.................................................................................... 16
   RECOMMENDATION NO. 4.................................................................................... 17
   EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT .................................... 18




USDA OIG-A/24601-1-FM                                                                                                  Page iv
                                                 INTRODUCTION

                                             FSIS is responsible for ensuring that meat,
                 BACKGROUND                  poultry, and egg products prepared for human
                                             consumption and distributed in commerce are
                                             safe, wholesome, and correctly labeled and
                   packaged. FSIS carries out its inspection responsibilities under the
                   Federal Meat Inspection Act, the Poultry Products Inspection Act, and the
                                              3
                   Egg Products Inspection Act .

                      The meat and poultry inspection acts require FSIS, during slaughter
                      operations, to examine each individual bird and carcass -- over 8.5 billion
                      birds and 133 million livestock annually at over 1300 slaughter and
                      slaughter-processing establishments. These on-line slaughter inspectors
                      make judgments about safety and wholesomeness of carcasses based on
                      organoleptic (sight, touch, and smell) inspection techniques and make a
                      critical determination that the carcasses are not adulterated and are
                      capable of use as human food. For fiscal year 2001, FSIS estimated that
                      the agency allocated about 60 percent of its 9,800 staff year budget to
                      these individual bird and carcass inspections. In addition, to ensure the
                      safety, wholesomeness, and proper labeling of processed products, FSIS
                      inspectors visit each of the approximately 5,300 processing and
                      combination slaughter and processing establishments at least once during
                      each operating shift. All plants shipping product interstate are subject to
                      federal inspection.

                      The Hazard Analysis and Critical Control Point System (HACCP) system,
                      which was recommended by USDA’s National Advisory Committee on
                      Microbiological Criteria for Foods and endorsed by the scientific
                      community, established seven principles for plants to implement in their
                      food safety system. It replaced FSIS’ longstanding program of meat and
                      poultry inspection. Under the pre-HACCP system, the production of meat
                      and poultry products was monitored at every stage by Government
                      employees rather than by in-plant production managers. HACCP-oriented
                      food safety inspection changed the approach of FSIS’ overseeing the
                      safety of meat and poultry products. Under this new approach, FSIS
                      relies less on after-the-fact detection of product and process defects and
                      more on verifying the effectiveness of processes and process controls
                      designed to ensure food safety.           FSIS restructured its inspection

3
    21 U.S.C. 601 et. seq., 21 U.S.C. 451 et. seq., and 21 U.S.C. 1031 et. seq., respectively.

USDA/OIG-A/24601-1-FM                                                                            Page 1
                    procedures to determine that production systems prevent the production
                    of unsafe meat and poultry products. Industry was required to implement
                    a HACCP system that identified and controlled (1) physical, chemical, and
                    biological hazards to the production process and (2) a program of ongoing
                    microbial testing that served as verification that the system is working.

                    The implementation of HACCP could impact how FSIS allocates its
                    resources to carry out slaughter inspection activities. In 1997, FSIS
                    began to design new inspection models that would realign the HACCP-
                    based roles and responsibilities of both the industry and the federal
                    inspection force through its HACCP-based Inspection Models Project
                    (HIMP). In October 1999, FSIS began testing new slaughter inspection
                    procedures under HIMP, which establishes food safety performance
                    standards for plants. To meet the standards, plants extend their HACCP
                    systems to address food safety conditions in ante-mortem and post-
                    mortem production operations; the plants are responsible for identifying
                    and removing carcasses that do not meet the standards. FSIS inspectors
                    are responsible for ensuring that the plants are meeting regulatory
                    requirements and that their products are safe and unadulterated;
                    verification is provided by observation, examination, sampling and records
                    review. FSIS expects that the new slaughter inspection procedures, if
                    ultimately adopted, will allow the agency to redistribute its inspection staff
                    more efficiently, freeing inspectors to fill critical vacancies, perform
                    additional food safety tasks within plants, and verify the safety of products
                    after they leave the plant. However, a group of FSIS inspectors, their
                    union, and a consumer group filed a lawsuit challenging the models
                    project. FSIS redesigned the inspection model based on an appellate
                    court finding that the inspection acts require that FSIS inspectors continue
                    to inspect each individual carcass. The most recent court decision in
                                    4
                    January 2001 found that the redesigned inspection model met statutory
                    requirements. The plaintiffs have appealed this latest decision.


                    FUNDS CONTROL

                    For fiscal year 2001, FSIS officials estimated that staffing costs account
                    for 82 percent of the agency’s total budget, grants to states (for cost
                    sharing of cooperative state programs) account for 5 percent and travel
                    costs account for 4 percent. Further, the agency’s travel budget is
                    primarily for inspectors’ local travel between plants to perform their
                    inspection tasks. Over half of the remaining 9 percent of FSIS’ funds are
                    allocated to largely fixed cost items such as supplies, equipment, rent,

4
 United States District Court for the District of Columbia, decision on remand, January 17, 2001, in Civil Action No. 98-893 (RCL),
American Federation of Government Employees, AFL-CIO, et. al., v. Daniel R. Glickman, Secretary of Agriculture, et. al.

USDA/OIG-A/24601-1-FM                                                                                                    Page 2
                    communications, printing and utilities. This allocation shows that FSIS is
                    a labor-intensive agency – salaries and benefits are by far the greatest
                    share of expenditures. Discretionary funds, on the other hand, comprise a
                    relatively small share of the agency’s budget. As a result, FSIS is
                    relatively inflexible in its ability to deobligate funds from one area to
                    compensate for over obligation in another. This makes funds control
                    especially critical in preventing over obligations.

                    For fiscal years 1997 and 1998, FSIS obligated more money than
                                                                                        5
                    Congress appropriated, thereby violating the Anti-Deficiency Act . As
                                       6
                    required by the Act , FSIS reported those violations to the President and
                    the Congress. FSIS reported over obligations of $4.0 and $3.9 million in
                    fiscal years 1997 and 1998, respectively, and a subsequent FSIS analysis
                    showed over obligations in travel, benefits and other operating expenses.

                    The Anti-Deficiency Act states, in part, that an officer or employee of the
                    United States Government may not-

                    (A) make or authorize an expenditure or obligation exceeding an amount
                        available in an appropriation or fund for the expenditure or obligation;
                    (B) involve government in a contract or obligation for the payment of
                        money before an appropriation is made unless authorized by law;
                    (C) make or authorize an expenditure or obligation of funds required to be
                        sequestered under section 252 of the Balanced Budget and
                        Emergency Deficit Control Act of 1985; or
                    (D) involve government in a contract or obligation for the payment of
                        money required to be sequestered under section 252 of the Balanced
                        Budget and Emergency Deficit Control Act of 1985.

                    If an officer or employee of an executive agency violates section 1341(a)
                    or 1342 of this title, the head of the agency shall report immediately to the
                    President and Congress all relevant facts and a statement of actions
                    taken.


                                              The Congress, concerned about FSIS’
                OBJECTIVES                    financial and program management, directed
                                              OIG, through its USDA appropriations for
                                                              7
                                              fiscal year 2001 , to report on the reasons for
                 recent inspector shortages and why Anti-Deficiency Act violations
                 occurred at FSIS in fiscal years 1998 and 1997.

5
  The Act further requires that the head of each executive agency prescribe a system of administrative control to restrict obligations
and expenditures to amounts available (31 U.S.C. 1514(a)).
6
  31 U.S.C. 1517(b).
7
  H.R Report 106-619.

USDA/OIG-A/24601-1-FM                                                                                                      Page 3
                                     We performed our review, between July 2000
           SCOPE                     and February 2001, in conjunction with our
                                     audit of the USDA financial statements. The
                                     audit was conducted in accordance with
          generally accepted government auditing standards. We conducted our
          work at FSIS headquarters in Washington, D.C., and its Financial
          Processing Center in Des Moines, Iowa, the National Finance Center in
          New Orleans, Louisiana, and the Office of the Chief Financial Officer
          (OCFO) in Washington, D.C. We also visited FSIS district office officials
          and contacted departmental and FSIS staff responsible for budgeting,
          accounting, personnel, and legal functions, as appropriate.


       METHODOLOGY                   The methodology followed during our audit to
                                     accomplish our objectives included:

             •   Documented controls at both the headquarters and field office
                 levels

             •   Tested specific financial transactions and the supporting
                 accounting records for receivables, payables and property

             •   Interviewed FSIS officials and obtained and analyzed data on FSIS
                 budgetary, financial and program management and controls

             •   Reviewed selected legislation and agency regulations and
                 guidance related to meat and poultry inspection, and applicable
                 documents pertaining to budget formulation, resource allocation,
                 funds control, inspector vacancies, proposed regulatory changes
                 and recent court cases

             •   Analyzed staffing trends and procedures used by FSIS to ensure
                 staffing levels were sufficient to accomplish its mission

             •   Interviewed responsible FSIS officials to ascertain operational
                 processes relating to staffing key mission area jobs

             •   Assessed actions taken by FSIS to identify and then fix the
                 problems that caused Anti-Deficiency Act violations

             •   Analyzed select Foundation Financial Information System (FFIS)
                 operations to determine impact of FSIS operational issues on FSIS
                 financial management


USDA/OIG-A/24601-1-FM                                                      Page 4
             •   Reviewed conversion activity from the Central Accounting System
                 to FFIS.




USDA/OIG-A/24601-1-FM                                                    Page 5
           FINDINGS AND RECOMMENDATIONS

                  FSIS’ INSPECTION PROGRAM FORECASTING AND
 CHAPTER 1        RESOURCE ALLOCATION METHODS NEED
                  IMPROVEMENTS

                                          Although FSIS has formally acknowledged to
         FINDING NO. 1                    Congress the existence of inspector staffing
                                          shortages, our review disclosed that the
                                          agency does not have an adequate method in
       place to fully identify its staffing needs. FSIS regulations (9 CFR 381.67,
       381.68, and 381.76) prescribe a methodology to compute slaughter-staffing
       levels. The method employed to support budget requests, however, consists
       of estimates based upon prior year data and does not consider critical factors
       such as production forecasts. Although a process was implemented in
       November 1999 which should address this matter, FSIS previously did not
       have an adequate system to monitor staffing at the over 1,300 slaughter and
       slaughter processing plants across the country. FSIS acknowledged to
       Congress that inspector staffing shortages occurred in FY 1999 and noted that
       the shortages “were not generalized, but rather they were widely dispersed.
       These concerns were brought to the Agency’s attention by individual plants,
       by industry representatives, and by congressional representatives on behalf of
       their constituents.” No mention was made in the report that disclosures of this
       type were internally identified.

       According to FSIS officials, industry growth and recruitment difficulties were
       the two primary causes of inspector shortages in fiscal year 1999. FSIS
       officials cited an unexpected six percent increase in poultry production for the
       year as a primary cause. In addition, the officials advised that higher-than-
       normal monthly variations in livestock production added to staffing difficulties.
       Further complicating this matter, transformations in the use of inspection
       personnel are contemplated through HACCP. Proposed inspection models
       under the HIMP have been stymied however, by legal challenges and
       interpretations of legal requirements regarding what can be done to operate
       efficiently while meeting statutory provisions.

       FSIS reported that recruiting difficulties were largely related to a strong
       national economy and competition in the employment market.                  The
       demanding work, strict physical requirements, and limited pay and benefits
       were also cited as obstacles to filling vacant positions and as a cause of high
       attrition. FSIS noted that these difficulties in hiring are amplified in remote

USDA/OIG-A/24601-1-FM                                                           Page 6
             locations due to the sparse population and the fact that many applicants are
             ineligible due to conflicts of interest such as close relatives’ employment at the
             plants.

             To address the inspector shortages, FSIS informed us that it undertook a
             number of initiatives to hire more inspectors and improve resource
             management:

                  •    FSIS began broadening its recruitment efforts in fiscal year 1999, and
                       developed a variety of employment incentives. Recruitment efforts
                       included extensive national and local advertising, recruiter visits to
                       educational institutions and career conventions, and the scheduling of
                       food inspector tests in hard-to-fill locations. Employment incentives
                       included signing bonuses and payment of travel expenses for over 30
                       hard-to-fill locations. FSIS also studied retention incentives such as
                       accelerated promotions and the waiver of annuity reduction for re-
                       employed annuitants.

                  •    Starting in fiscal year 2000, resource management was given a greater
                       emphasis according to FSIS. Tools to plan and manage inspector
                       staffing were developed for use by FSIS district offices, and
                       representatives from FSIS headquarters and the human resources field
                       office visited district offices to provide on-site assistance in using the
                             8
                       tools . In fiscal year 2000 FSIS began using the tools to gather data
                       from the districts on actual use and expected demand for inspector
                       staffing.

             The Agriculture Appropriations Bill for fiscal year 2000 provided FSIS with an
             increase of $11 million to fill inspector vacancies and hire new inspectors. By
             the end of fiscal year 2000, FSIS had used this additional funding to raise
             permanent full-time in-plant staffing from 7440 to 7643 employees. Even
             though inspector shortages were reduced, industry officials have continued to
             raise concerns about the inspection program’s ability to keep pace with
             increased workload. FSIS expects the increased funding provided in fiscal
             year 2000 for in-plant staffing to be sufficient to address industry growth
             through 2001, and noted that the first quarter of fiscal year 2001 reflected a
             slight decrease in the demand for inspection services. However, USDA
             economists project poultry production to increase by 2.9 percent in 2002 –
             over 240 million birds; this equates to over 100 additional inspection personnel
             under current inspection practices. Absent hiring more inspectors, the
             potential growth in poultry and livestock production could continue to stress
             FSIS’ resource use.
8
  These tools consist primarily of spreadsheets in which District offices enter actual and estimated data on staffing – such as
accessions, attrition, vacancies, hiring plans, and travel – and other operating expenses such as supplies, equipment, rent,
communications, and printing. Headquarters accesses the spreadsheets through FSIS’ wide area network.

USDA/OIG-A/24601-1-FM                                                                                               Page 7
       Despite the actions taken by FSIS officials, as discussed above, our review
       showed that FSIS’ resource management methods need further strengthening
       to better estimate staffing needs, and to ensure that inspectors are deployed
       to areas that have the greatest need. District officials are asked to estimate
       expected attrition and demand based on their own projections of industry
       production levels, and to input those estimates in spreadsheets accessible by
       headquarters. However, staffing allocations among districts are based on two
       key variables: each district’s use of staff years in the prior fiscal year and
       expected attrition. Therefore, although some demand data is considered,
       production increases may not be adequately addressed. Although many
       factors can affect the development of a “full-staffing” budget, the omission of
       production estimates in the development of FSIS’ budget reduces decision-
       makers’ options in making funding decisions for meeting the critical
       inspections aspect of FSIS’ mission. In addition, district projections of industry
       production levels are not compared to national projections, such as those
       prepared by USDA economists, and the national projections are not used to
       formulate annual staffing and budget requests.

       OIG was unable to evaluate the reasonableness of FSIS’ projections for
       inspector attrition or industry production levels by district to actual levels
       because FSIS does not have data prior to fiscal year 2000. However, FSIS
       bases attrition estimates on the prior year’s number, rather than using
       available data on retirement eligibility and resignations. Because, according to
       FSIS, about half of inspector attrition is due to retirement, we believe that
       FSIS could improve its attrition estimates by using actual information on the
       age and service time of recent retirees and current inspectors.

       FSIS also was not able to provide us with quarterly planned employment
       levels for key inspection positions for the three years prior to fiscal year 2000,
       although FSIS officials stated that the districts were provided inplant
       employment targets. FSIS officials stated that in fiscal year 1996 many of the
       resource management monitoring and reporting systems were discontinued or
       used only sporadically until new tools were developed and put into use for
       fiscal year 2000.

       FSIS officials emphasized that budget requests are subject to review by
       program and policy officials within the agency, Department, OMB and
       Congressional review, and that budgets are prepared to support the highest
       in-plant employment levels possible, subject to funding and policy constraints.
        According to FSIS officials, due to an emphasis on cost control, budget
       requests are not based on staffing all vacant inspector positions, and
       calculations are not made to determine the additional inspectors needed to
       meet projected industry production levels. Instead, budget requests are
       generally based on prior staff-year usage and expected attrition; vacancies

USDA/OIG-A/24601-1-FM                                                            Page 8
        due to attrition are expected to be filled through redeployment of other agency
        resources as well as hiring. FSIS stated that the agency was expected to
        meet increases in the demand for inspection services through business
        process and technological improvements in the inspection program. Until
        2000, FSIS had only one increase in in-plant inspection staff years since
        1993, and had reduced non-inspection agency activity by 20 percent.

        FSIS officials also stated that in November 1999 the agency began using the
        Slaughter Staffing and Vacancy Tracking System, which is intended to provide
        bi-weekly data on each plant that has on-line slaughter positions that are not
        permanently staffed. The district office and the inspector-in-charge at the
        plant provide information on vacancies and on how the position is being filled
        temporarily, and estimate both the minutes lost due to the vacancies and the
        potential adverse impact to industry.

        We discussed our concerns with FSIS officials who advised us that reductions
        in inspector staffing problems and improved resource management are
        potentially available through HIMP. In October 1999, FSIS began testing new
        slaughter inspection procedures under HIMP. FSIS expects that the new
        procedures, if ultimately adopted, will allow the agency to redistribute its
        inspection staff more efficiently, freeing inspectors to fill critical vacancies.
        However, by FSIS’ own estimation, regulatory changes would take two years
        or more. In addition, while the HIMP pilot testing has tried to realign the
        HAACP-based roles and responsibilities of both the industry and the federal
        inspection force, court decisions in January 2001 have required that FSIS
        inspectors continue to inspect each individual carcass.

                                        Develop and implement procedures to
  RECOMMENDATION NO. 1                  estimate staffing needs, under current
                                        inspection practices, based upon forecasted
                                        industry production levels, and age, service
      and retirement eligibility data. Ensure this model can identify staffing needs at
      the district level in order to seek sufficient funds in budget requests to fully
      meet all inspector staffing needs.

        Agency Response

        FSIS concurred with this recommendation and agreed to develop and
        implement refined procedures, by October 2001, to estimate staffing needs
        based on forecasted changes in industry demand for service and projected
        changes in the retention of inspection service employees. In addition, the
        agency will ensure that this data is considered in developing its budgets in
        order to seek sufficient funds to meet all regular inspection staffing needs.



USDA/OIG-A/24601-1-FM                                                            Page 9
       OIG Position

       We accept the agency response for management decision.




USDA/OIG-A/24601-1-FM                                           Page 10
                  ACTIONS TAKEN HAVE IMPROVED FUNDS
 CHAPTER 2        CONTROL; ADDITIONAL ACTIONS WOULD PROVIDE
                  FURTHER STRENGTHENING


                                      The FSIS reported to the President, pursuant
        FINDING NO. 2                 to the Anti-Deficiency Act, that it violated
                                      sections 1341(a) and 1517(a) of Title 31,
                                      United States Code during fiscal years 1997
       and 1998. According to agency officials, these violations, consisting of over-
       obligations and over-expenditures of appropriation and apportionment,
       amounted to $4 million and $3.9 million, respectively, for the years cited. The
       violations occurred because of significant weaknesses in the Department’s
       CAS, and inadequate accounting and administrative controls at the operating
       level. CAS is now defunct for FSIS. We have a long history of identifying
       significant deficiencies in CAS. We were unable to garner a complete
       understanding of the accounting deficiencies at the agency level due to the
       previous departure of responsible officials, and thus complete explanations
       were not forthcoming.

       The FSIS has recently studied and overhauled its financial management
       structure, which should serve to reduce the likelihood of future violations.
       Implementation problems have been encountered in FFIS, however, which
       could result in potential problems if not promptly remedied.

       FY 1997 Anti-Deficiency Act Violation ($4 Million)

       Discussions with FSIS officials disclosed their view on the various program
       and administrative activities which resulted in the violations; in our estimation,
       however, controls should have been in place to preclude, or detect in a timely
       manner, any anti-deficiency. Their explanation follows.


       For fiscal year 1997, FSIS reported to the President that the primary reasons
       for the over-obligations were costs related to implementing HACCP, a massive
       recall of beef, and a major reorganization of FSIS. First, FSIS reported that
       although it had requested and received $3.5 million for costs related to
       implementing the Pathogen Reduction/HACCP rule, actual expenses were
       over $4.0 million. Second, in relation to a recall of over 25 million pounds of
       beef products, FSIS stated that it had incurred significant costs due to
       regulatory activities, including investigations, epidemiological reviews, staff
       support activities, product testing and establishing protocols for review of
       suppliers. Third, FSIS’ reorganization brought about both higher costs than


USDA/OIG-A/24601-1-FM                                                           Page 11
             expected and a reduced ability to track and monitor costs in general, as
             discussed below.

             The reorganization was originally planned to be phased in over three years.
             However, FSIS reported that it had to accelerate the reorganization because
             staffing levels fell more quickly than expected in offices scheduled for closure,
             and that, as a result, related costs such as office and employee relocations
             and career counseling were higher than expected that year. FSIS also stated
             that managers had difficulty monitoring costs in general because of (1) the
             absence of clearly defined accounting and financial management systems
             designed for the new organization structure, and (2) the reassignment of
             regional funds control duties to fewer and less experienced staff. FSIS’
             accounting code structure changed significantly to accommodate the
             reorganization. According to FSIS officials, the inflexibility of the accounting
             system precluded the agency from making changes to the accounting system
             to completely reflect the new organizational structure. FSIS specifically cited
                                                 9
             incorrect obligations reported by CAS, used by FSIS at the time, as an
             obstacle to monitoring costs, and also noted difficulty in reprogramming CAS
             to provide reports based on the new accounting codes.

             Agency officials asserted that the reorganization also left the agency with a
             lack of budgetary expertise in the field – eliminating the administrative officers,
             support staff and a level of regional management that had been involved in
             funds control. The 18 (now 17) district offices were given a single resource
             management specialist with a variety of job responsibilities in addition to
             monitoring and reporting funds use; the specialists’ expertise and experience
             varied greatly. We did not, or were unable to, independently corroborate the
             agency’s description of what transpired.

             FY 1998 Anti-Deficiency Act Violation ($3.9 Million)

             Many of the funds control problems FSIS experienced in 1997 were still
             present in 1998. FSIS again cited problems with inadequate resource
             management tools, the USDA accounting system, and weaknesses in its
             management controls as causes for the Anti-Deficiency Act violations. In
             addition, FSIS expected that certain activities related to HACCP
             implementation – specifically hiring and training compliance officers – could be
             paid through cost savings in other areas. However, those savings were not
             realized. FSIS also stated that the number and cost of relocations were
             greater than expected.
9
  Since 1991, our audit reports on the USDA financial statements and our internal control reviews of OCFO/NFC have detailed
material internal control weaknesses in CAS that result in unreliable information. For example, we reported that CAS does not
conform to the U.S. Government Standard General Ledger (SGL); general ledger accounts were not always appropriately
crosswalked to the financial statements as required by SGL, and the audit trail from the general ledger to supporting
documentation, in some cases, was nonexistent. Also, material weaknesses continue to exist in the areas of accounting
adjustments and reconciliations within the CAS.

USDA/OIG-A/24601-1-FM                                                                                            Page 12
       To reduce over-obligations in 1997 and 1998, FSIS informed us that it took a
       number of immediate actions - primarily canceling undelivered orders and
       contracts and redirecting discretionary funds. However, the extent of the over
       obligations and the relatively small amount of discretionary funds did not
       permit a complete remedy.

       Corrective Action

       To address the serious financial management problems that occurred in fiscal
       years 1997 and 1998, FSIS has taken corrective measures since 1999 to
       improve its fiscal management operations, as follows:

          •   created the position of Chief Financial Officer (CFO) to provide
              additional budgetary oversight,
          •   split the Budget and Finance Division into two separate divisions to
              provide more oversight and control,
          •   created a resource management and policy oversight body – comprised
              of the CFO and the program Associate Deputy Administrators – to
              review and recommend decisions on major budget issues and to
              monitor all spending,
          •   involved all managers in budgetary management,
          •   implemented revised guidelines for monitoring travel and other
              expenses, and
          •   implemented FFIS beginning with fiscal year 2000.

       FSIS also hired an independent contractor to analyze its financial
       management operations and develop detailed corrective actions to address
       the problems noted. In September 2000, the contractor reported the following
       problems:

          •   budget expertise in FSIS’ field offices and budget execution tools are
              inadequate,
          •   financial management is a low priority in FSIS, and
          •   financial management is not an integral component of FSIS’ program
              manager’s jobs.

       An FSIS analysis showed that employees failed to submit travel vouchers in a
       timely manner -- on average about 4 percent of travel vouchers are submitted
       over 3 months after the travel occurred. Because obligations for travel are not
       recorded until time of payment, the agency cannot verify that it had sufficient
       funds until all vouchers are filed and processed. The contractor also noted
       problems with convenience check and purchase card expenditures. For both
       methods of procurement, the contractor reported that the absence of both a
       “funds availability certification” prior to purchase, and a “post-purchase review”

USDA/OIG-A/24601-1-FM                                                           Page 13
           by an approving official combine to create a risk to FSIS financial
           management.

           FSIS officials concurred with the contractor’s findings and have developed a
           strategic plan and management team to implement the recommendations
                                               10
           contained in the contractor’s report , which were as follows:

              •   build a strong financial management capability throughout FSIS,
                  including formalizing the role of the Chief Financial Officier (CFO) and
                  allowing districts to fully participate in their financial management
                  responsibilities,
              •   clarify financial management roles and responsibilities FSIS-wide,
              •   improve the recording of obligation status for travel, and
              •   institute a purchase card/convenience check utilization review program.

           FSIS has created a Resource Management Coordination Team to perform a
           needs assessment review at each of the district offices during fiscal year
           2001. The team is also developing financial management systems tools
           intended to help the district offices and other FSIS program offices perform
           their funds control management responsibilities.

           FSIS has also contracted with the consultant to assess the effectiveness of its
           actions taken in following these recommendations, and other activities. The
           contractor’s fieldwork for this follow-on contract is scheduled for completion in
           December 2001.

           New Problems Loom

           While significant actions have been taken and progress has been made, new
           financial management problems arising out of the conversion to FFIS will
           require additional time and effort by FSIS to resolve. Details follow:

           FSIS officials expected the implementation of FFIS to improve their ability to
           control funds through better tracking and reporting of obligations and
           expenditures. However, FSIS experienced several problems in converting its
           financial operations from the CAS to FFIS, resulting in incorrect data regarding
           funds control. For example, FSIS reported to OMB that cost allocations
           produced by FFIS have not been accurate throughout all of fiscal year 2000,
           which resulted in the incorrect applications of over $3 million in administrative
           and overhead charges for FSIS programs, and inaccurate reporting of data
           needed for the SF-133, “Report on Budget Execution,” an important tool used
           by OMB to monitor agencies’ proper use of funds.

10
  FSIS’s Financial Management and Accounting System – Recommended Improvements and Implementation Strategy,
September 2000, Logistics Management Institute.

USDA/OIG-A/24601-1-FM                                                                           Page 14
       Misallocating costs in FSIS’ accounting system increases the risk of errors or
       irregularities and the potential for unauthorized use of appropriations or trust
       funds. FSIS’ controls were not adequate to ensure that the shifting of costs
       from one account to another was done correctly or in a manner consistent with
       appropriations law. Although the agency monitored this activity and became
       aware that problems were arising, FSIS did not discover the extent of this
       funds control problem until November 2000. FSIS officials advised us that the
       inaccurate data they obtained from the FFIS system was the direct reason
       why they had to manually prepare a corrected SF-133 that was not submitted
       to OMB until January 19, 2001. The error caused misstatements in obligations
       recorded for reimbursable inspection activities. As of March 2001, FSIS has
       not been able to correct this problem.

       Determining and maintaining its available fund balance with Treasury is a
       critical part of FSIS’ budget execution system. Treasury has information about
       FSIS’ budgetary activity and FSIS must periodically reconcile its records to
       Treasury’s to determine the actual amount of funds available. This is
       analogous to reconciling a checking account to a bank statement. However,
       OIG was unable to verify FSIS’ Fund Balance with Treasury, which is
       comprised of obligated and unobligated balances. As of September 30, 2000,
       a comparison of FSIS and Treasury’s records showed that the absolute value
       of unreconciled differences was $37.5 million, of which $30.2 million related to
       disbursements and the remainder to collections. This information is essential
       for FSIS and Congress to be able to determine the status of funds and if
       unobligated balances are available that could be used to reduce current
       funding requirements or that could be used by FSIS to meet other, more
       important needs.

       Another potentially serious problem exists, again related to the conversion.
       Most assets, liabilities, revenues, and expenses stem from or result in cash
       transactions. Errors in the receipt or disbursement data affect the accuracy of
       various FSIS financial reports, including budget execution reports and
       information reported to Congress. Our review found that FSIS has millions of
       dollars in prior year account balances for which FSIS has not identified
       supporting documentation. The uncertainty of these balances compromises
       FSIS’ ability to control funds. Prior to conversion to FFIS, FSIS performed a
       massive effort to identify activity recorded in the legacy system for which no
       supporting documentation was identified. This activity was converted to FFIS
       using “alternate” fund codes. During fiscal year 2000, FSIS was supposed to
       research this activity and either transfer supported amounts to the correct fund
       code or write it off. As of September 30, 2000, over $430 million in
       unidentified prior year activity remained in these alternate fund codes and was
       reported in the agency’s financial statements. The impact of these balances
       on the financial and budget execution reports cannot be determined until
       these amounts are resolved. FSIS officials advised us that they had recently

USDA/OIG-A/24601-1-FM                                                         Page 15
        made progress in identifying some of the activity but had not quantified the
        amount.

                                       Work with the Office of the Chief Financial
 RECOMMENDATION NO. 2                  Officer to resolve the problems that have
                                       impacted the proper allocation of costs and
                                       impeded timely reporting to oversight officials.
Determine the impact on FSIS’ records and make any necessary corrections.

            Agency Response

            FSIS agreed with the recommendation and stated that it is working with
            the Office of the Chief Financial Officer, the FFIS Project Team, and the
            FFIS contractor to determine the cause of the erroneous distribution of
            overhead costs. A manual process will be developed to use in case the
            system problem is not corrected in time for yearend reporting. FFIS
            anticipates resolution this condition by October 2001.

            OIG Position

            We accept the agency response for management decision.

                                        Develop and implement a process to timely
  RECOMMENDATION NO. 3                  reconcile FSIS’ Fund Balance with Treasury
                                        with the records maintained by Treasury.


            Agency Response

            FSIS agreed with this recommendation and stated that it is working with
            NFC to identify the improperly scheduled documents and to make
            systematic adjustments. Further, until a software correction strategy is
            determined and implemented, FSIS has developed or otherwise
            implemented various reconciliation tools to enable it to minimize additional
            out-of-balance conditions. FSIS expects to fully implement its new
            reconciliation process by October, 2001.

            OIG Position

            We accept the agency response for management decision.




USDA/OIG-A/24601-1-FM                                                          Page 16
                                      Establish a team to immediately research the
  RECOMMENDATION NO. 4                unsupported amounts converted to FFIS from
                                      CAS. Make the necessary adjustments to
                                      correct the records.
          Agency Response

          FSIS agreed with this recommendation and stated that the majority of the
          first year FFIS implementation issues have been resolved. It also stated
          that it will continue to work with the Office of the Chief Financial Officer
          (OCFO), the FFIS Project Office, and the Department’s FFIS contractor to
          analyze and resolve the prior year unsupported amounts. FFIS will make
          the appropriate adjustments by October, 2001 and produce an interim
          report on that date regarding the status of any unresolved issues by that
          date.


          OIG Position

          We accept the agency response for management decision.




USDA/OIG-A/24601-1-FM                                                        Page 17
EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/24601-1-FM                          Page 18
EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/24601-1-FM                          Page 19
EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/24601-1-FM                          Page 20
EXHIBIT A – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/24601-1-FM                          Page 21
